      +PC      *   S




 .q$$@!
                                                          NATIONU SCIENCE FOUNDATION
                                                          OFFICE
                                                            OFFICE
                                                                 OFOF
                                                                    INSPECTOR
                                                                      INVESTIGATIONS
                                                                              GENERAL


  z40                                              CLOSEOUT MEMORANDUM
       D~~~~           \o

 Case Number: A04120071                                                                        Page 1 of 1



                                                                                '
          In connection with a proactive review, we reviewed an awardee's General Ledger. This review
          revealed that the awardee had spent the last $32,000 of NSF funds on post-award expenditures.
          Further iilvestigation revealed that the PI had requested an extension of tiine to complete work
          beyond the award's expiration, but NSF denied this request. In addition, investigation revealed that
          despite NSF's denial of the second-no-cost extension, the PI engineered the draw down of the
          $32,000 by falsely characteriziilg the draw down as a reimbursement. However, the ~najorityof the
          funds, approxi~nately$27,000, were used to fund newly incurred, ongoing, post-award expenses.
          Thereafter, the awardee filed a false final Federal Cash Transaction Report certifying that all award
          funds had been spent. Then, the PI filed a Final Report that falsely represented that all work on the
          award was complete. When asked about this by OIG investigators, the PI said she didn't know the
          second no-cost extension had been denied by NSF. The weight of the evidence refuted this assertion.

          Without adinitting liability, the awardee settled a civil false claims case with the Department of
          Justice for $52,150 and agreed to enter into a self-governance programdesigned to ensure that it will
          operate with honestly and integrity and in compliance with applicable law.

                                                    action, the PI was debarred by NSF for 5 years.
          In a separate and unrelated ad~ni~listrative

          The Settlelnent Agreeinent between the awardee and the Department of Justice, the Report of
          Investigatioil pertaining to the PI, and NSF's Deba~~nent
                                                                 letter are attached hereto and incorporated
          herein by reference.

          Accordingly, this case is closed.




          I
              Inforrnatiollal Tecllnology Association of America; HRD 0128850
          2
              Marjorie Bynum




             2 ( 1 1/02)
NSFOIG FOI-112
                                                 AGKEERIENT A N D RELEASE



I.        lN'1'IIODUC'TION

          This Agsecmcnt and Kclcase ("AGREEMENT") is entered into bet\veen the United Sri~[eso f

America ("UN17'ED STATES"), acting for and through tlic United States National Science Foulidation

("NSF") and rlic I ~ i f o r m a ~ i oI'echnology
                                        n         Association o f America ("ITAA") to resol\e a dispute

regarding NSF Grant numbcr O 128850 entilled "The Digital Opporturiity Partncrsliip: L i r i h i ~ i gtlic I T

I ~ ~ d ~ i s\villi
              t r ? hlir~ority-Set-vii~g                      ~ i s "Gra~ir"or "NSI: Grant").
                                      I i i s ~ i t ~ i ~ i o("tlic

11.       l'.-lItTlk:S

          A.             Tlie UNI'TED STAI'ES is [lie proposed pl;iiririfTii~ tliis AGIIISEh,lENT, acring tor and

~ l i r o u g l11ic
               i NSI-.

           B.            I-I'AA is [IIC ~ ~ r o l ~ o dekiid;l~lt
                                                      scd         ill ail action ~ , ~ ~ r s u ato~CQII~IIIVII
                                                                                                   ir             !:I\\.   a~itlr l ~ cI::~lsc

C l a i l i i i ACI. -l.i[lc 3 1 U.S.C. 9 3729. er secj. as aiiie~ided,ill this A G I I E E N I I ~ N I -'fogcrllc~.
                                                                                                          .        [lir UNI-I'EI)

S'I'ATES and I'I'AA i11.crcfl.r.red ro as tlie PAR7'IES.

Ill.       l3~tCK(~l<Ol'Ni)

           I'I'AA is a doiiics~ic.1101-I'or-profitNu\:York Corporati011registered ill [lie C o ~ l i ~ i i o r i \ \ ~ eoa fI ~ l i

Virginia   \\   ill1 ~Kficcsat I 401 Wilson Bol~lcvard.Suile 1100. Arlington, V i r g i ~ i i a72209. 011Septrt~nbrrI.

2i)U 1 : l'['.j\A \ \ - a s a\\ilrdcd rlic NSI- Gralit ill r l ~ eaillourit o f $249.509. '1-lic NSF Gi.anr c.pil.ed oil A ~ l g ~ i s r

3 I. 300;.

1          hLLI:G.+~I'IOI\;S

           A.            'Tlic UNITED S'IT'ITES al legzs tliar I T A A on or about Scptc~iibcr17, 7003. d w \ \ do\\ n

$32,247.1 I ill g1.a111                        beell ;id\.ised rliat the N S F \vould )lor reiiilburse I'T'AA Ibr cos~s
                      1'[11iOs al'lcr Iiil\li~lg

~IICIII-I.CCI
            :jl'tel. tllc csl~i~.;ltiuli
                                      darc oFtlic graiir. 'Tlic dra\v do\\.n \\,as ~-epl.eseritcd;IS a              "I~~~I~I~~I~SCI~ICIII."


lio\vever, \lie NSi- t~sscrls[hat $27.572. 16 of'tlie $32,247.1 1 d~.a\\;
                                                                       tlo\vi~\v;~s1101                      ;I   ~.ci~irhul~scnicli~.
                                                                                                                                ;IS


cosls iii tliis aiiioLllil ol'X77.572. I 6 Iiird 11oL bccii incun.e(l by I'I'AA as ol'tlic espira!io~iol'llie gi.;~irI.
          ITAA strbn~irteda Fedcral Cash Transaction Repon ("FCTR") to NSF on November 14.2003,

                                30. 2003. in wliich I T A A cel-rified "to the best o f [its] k~iowledgeand
for the quarler erlding Sepre~nbe~

belief. t ( ~ [ ercport
                  ]     [\\.as] truc in all respects a ~ i d[hat all clisburse~ncnts[ I ~ a d bee11
                                                                                              ]    rilade tbr the purpose

and conditions ... o f the award[]." The NSF asserts that this rcpon was not accurate.

          I T A A filed its Filial I'lvject Repon wit11 tlie NSI: on Noveriiber 17,2003 representing to the NSF

that its \vork on [lie NSF Grant award was co~iiplere.The NSF asserts [ha[ this representation by I T A A

\\(as inaccurate because I T A A continued to spcnd NSF funds fro111the G r a n ~through November and

         2003.
I>ece~nbe~-

          I1'AA a s s e n s that all riio~iiesrect.i\.ed boll1 before and al'rcr A u g ~ ~ 3s 1t . 3003 \\ere for \\;ark

                                                 ly       by I T A A ill co~incct
acrtral ly perfor~ncdand espcliscs a c ~ i ~ a lirict~rrctl                     ion ivitli till filling [lie purposes o f

1.11eNSF G r a ~ i t ,

          Tlic asserrions in part I V . A . arc. ri.l.crrc.d to Ilerei~ialieras tlie COVEl<El) CONDUCT.

V.         RICASON FOR SLS'1"I'LI?MEi\i'l'A N D I'ENALTI                       1,:s
           In ordcl- ro a\roid ~ l i c~rlice~tainty.
                                                  ~iriic, delay: riccdlc.ss burderl. a ~ i t l expense 01' PI-otracretl

lirigation. and beca~rsethe U ~ i i ~ eSrates
                                        d     rcg;~rdsrlial ir is i r ? r l ~ cpublic intercsr to sstrle an). strcl~dispirres

 villi ~.espectro i ~ clairlls,
                      s         t l i e I'/\Rl'I ES. repr.c.se~ired
                                                                  by colrrisel. Iiave aprccd to settle all clairus asserted

                                                     I r is cxpressl!- agreed arid understood rhar this
by the h:SIr against IT.AA tlirotrgh this AGI<EE~v~EYT.

AGIIEEX.II~N1' irl~ol\res llic s c t ~ l e ~ i l e01'~ l ~dis~ured clniins        :III~   tlii~r tllc execution. dclivcr!;   and

acccplnlici: i l l rliis i'iGl<LIEX~ll~Nl~
                                       2nd                   oI';l~i!:
                                                 II;I!~II~~I~I           riioliej, I~c.rci~ililc~..
                                                                                               do 1101 colistitutc an ad~niss~oll

ol' liabilit!. or responsibility on t l i r par1 o f oily o i r l ~ cpaflies Ilc.~-r~o.

           NO\!',                   ill collsidel.atiorl ol'tl~ernarre1.s set i o r t l ~ahovc a i d the follo\;;irig niurual
                    71't-11CREliOliI<.

covrliarlts, TI I L UNITED S'IA-rI'S and I T A A Ilcr.cby agrcc ns Iollo\vs:
V1.          OBLIGATIONS OF ITAA

             A.           l';lylnerll to 111.cUnited Sklks. I T A A agrees to pay l o tile United Slates the sun) o f irifr),-

'l'wo '1-housa~idand Onc I-lundred and I'iliy Dollars and zero Cents ($52.150.00) \\:illiin live ( 5 ) business

days after the date ot'tlic e s c c u l i o ~o~f this agreelnerlt by ITAA.

               0.          Manner :uid b l c ~ l i o do f Pavment. The payment o f Fifty--1'wo Thousand and O l ~ e

Hundred Fifty Dollars ( % j ? . l j 0 . 0 0 ) provided for in subpaiagrapli Vi. A . shall be by electronic funds

transfer ("EFT"). payablc to the U.S. Depal-trnent o f Justice. upon illstructio~lspro\,ided by the United

States Attorllcy's Ol'licc's Finrillcia1 Litigalion Unit and transferred                               110 la1c.r r l i a ~~
                                                                                                                           i l i r c cbusincss   days iron1

 lie darc tliis AG11ELhl13NT is; signed b\, tlie U N I T E D STATES and ITA.4's rcprcsentnrives. EFT

instr.uctio~is\\.ill be PI-o\,idedto I.I'AA b!! ci1lli119Ginser S\\.art\vortli at telepllollc 757.44 l .3 l 17 or b!. fas

a1 I - A X   1 i t 1 1 1 i O r i 757.44
                                 .        1 .33S6.

               C:.         Scll'(;ii\~cl.alicc I'~oL?I.~II~I.
                                                           1'1-.AA itsI-i'eS ~     l l i i~t t\\,ill   i ~ i i ~ ~ l e illid
                                                                                                                        ~ii~ c i~i ~
                                                                                                                                   ; ~( i ~ i;I~Sell'
                                                                                                                                                 ai~i

Govcl-aricc I'~-ogr.a~i~
                     ;is si.1 l'o~.tllill A~I;IC~IIIICIII             A lo ~ l i i sAGl1l:EivlEN~T- illid i~icol-pornrctlby referelicc.

VII.            I<I.:LlC:\SE

             A.            O N BEI-lA1-1: 01: -I-I-IEU N I T E D STPITES - In cunsideri~~ioli
                                                                                          o f ~ l i i sAGliEE%IEN?' and

tlie pn>.mellts scr Ibrlli Iicrei~l.and escept fbr sucll obligations as are created b!. tliis AGKEEh.lEN*r. the

U1VI.l-ED S-l-/\TES liereby \\:ai\,cs, releases a ~ i dpro~iiiseto refrain from ilistituti~lg.or lilaintainillg aliv

ci\,il claitii. sciio~i.or suil ulidcr an!. I.cdcral starutcs. la\\:s. ~.cgulatiollsor- a1 c o r l ~ ~ i i la\\-
                                                                                                           o ~ lagai~islII'IZA

a r i s i ~ i goirr vf rllc c i r . i ~ i ~ ~ l ~ tl.or
                                                    ; ~ ~r llec C
                                                                c jO V E I E D CONDUC'I'.

             13.           ON RI'I 1AI.F 01-I T A A -           111 co~isiderationo f      tliis ~ \ ( ; l < I ~ I ~ h . l l ~ Na ~ Ii'dexcepr
                                                                                                                                        .      lor sucli

obligations crealed b y tliis :IGliL'.EMENT, I'I'AA Iiereby \\;aives, releases and pro~iliscsto refrail) from

i~lstitutilig01-~iiaillt:~irlillg
                               ally civil clni~ii.nctio~i,or. suit, ulider ally li.de1.;11s ~ ; ~ ~ u 1;1\\
                                                                                                      ~ c ss, , r c p i ~ l a ~ i o lor
                                                                                                                                     is

a t colnillorl la\\        ;I~;I~IISI     the U N I ~ I ' I ~S'I'A'I'IiS
                                                             II          i~t.isirlgout o f tlie cir-curnsta~lccsol'tlic 11laILcrsat issue

regar-tli~igtile COVI-;liI-;Ij CON IIUC'I
          C.         EXC1I''I'IONS '1'0 RELEASE: N ~ n \ ~ i t l i s t a n d i ally
                                                                               n g lerrn o r tliis AGIIEEMENI',

specifically reserved ant1 cxcltrdctl li.0111tlie scope arid terlns o f this AGIIELMENl' as to any entity or

persori are \lie Vollowi~ig:

                     I. any civil. cl.iminal. or adniinistrative liability to rhe U N I T E D STATES arising under

                          l'itlc' 26. U.S. Code (Internal Reverii~eCode), and related regularions:

                     2. any crililinal liabilih;

                     3. ally adiiiinis~rativeprocess or proceeding by [he U N I T E D STATES (or its agencies):

                     4.   all); judicial process or ~~roceedins
                                                             bj, tlie Uhll.l.ED S.I'A7'ES (or i r s nge~icies)for any

                          corlducr oilicl. lllari tlic COVERED CONDUC-I';

                     5 . ;illy liilbili~!~
                                         lo ~ l l eLJNI-I'EDSTATES (or i ~ agi.ricies)
                                                                           s           tbr ally collduct othcr tliari tlie

                          COVEIII!D CON1)LJC'I'; and

                     6 . all!. clair~iso1'1Ile UW1~1~~11
                                                     S'I-ATES ! ~ s e i up011
                                                                        l    s~rcliol7Iig;11iorls;IS ;Ire crcnred b!,

                          Illis Agl.cc~ilcllr.

VIII.      M'AIVEII:

           A.        1.1-AA w a i v ~ si l r ~ dsliall rio1 t i s ~ r f ill
                                                                        l ally crilnirial proscc~rrio~i
                                                                                                     or ; ~ d ~ ~ i i ~ i i s ~ ~actiori
                                                                                                                                  .ati\!c

relating ro tlic C 0 V E I I I : I I CONDLIC-P. all). defenses that [nay bc based iri i\-liole or ill part on a

contenrion that, under tlic Do~rbIeJeopardy Clause o f the Fifth Arneridnierir o F ~ l i eColistirurion. or under

rht. Lsccssi\:c. 1:ilics Clausc iri IIIC LIigli~liArric.ndriicri~o i ~ l l C
                                                                           r o ~ i s r i r ~ ~ t this
                                                                                                 i o i ~AGliEE:\.lEh!'T
                                                                                                        .               bars a

rcriiedy souplit iri such criiliilial proscc\lrio~ior ad11iinist1-ziti\
                                                                    e actio~i.Il.12:2 agrccs [Ii;i\ tliis

AGIIEEh,ll;N~1' is rlor p u ~ i i ~ i \iri
                                        , epurpose 01.rt'fscr. N o t l i i ~ i gi r i ~ l i i sParaprapli or any o ~ l i e rprovisiori o f

                           all agrerliieiit by tlic UNITED STATES conccrni~lgtlic clinrac~erizario~i
this AGREEh4EN7'corisrit~11es

                                 for purposes o i r l i e Interlial l i e v c ~ i u cI-a\w. ' l ' i ~ l e3 0 o1'tlic Uriited
of'llie SETTLEhI EN'T Ah~lOl.lN'1~

Staces Codc. IBeh/\ sll;tll. Iioi\,eve~..
                                       bc entitlcd to asser-t ally ant1 all r i g l i ~ s01.clcl.criscs ro CI-i~ni~ial
                                                                                                                   or.

a d ~ i i i ~ i i s r ~ . a ~ i \ ~ e a [lor
                                        c t i oes131-cssly
                                                r~s      11;11-1-rcl
                                                                 i ~tliis
                                                                     i ~)aragra~~h.
         B.        BANKKLIP'I'CY EXCEP'f ION: If ITAA files for bankruptcy within                   nine^ (90) da!,s   of

this AGREEMENT. the UNITED STATES, on behalfof the NSF. is entitled to pursue the full amount of

                       Thousa~idand One I-lundl-edFifty ~ o l l i r . ($57.150.00)
its claim of' Filiy-T~vo                                              s            against ITAA.

IX.      COSTS:

         A.         ITAA agrees thal a l l costs incurrcd by or on bchalf o f ITAA. i~icludingits officers.

directors, agents. and eniployces in connection with ( I ) ~nattcrscovered by this c\GREEbIENT: (2) the

           audit and in\;cstigatior~o f the matters covered by this AGREEhflENT: (3) I.I.AArs
Govenlnle~~t's

i~ivestigationrilld del'ense 01'1llc ~ilattcrscovcl.cd by this AGI<l:liblLNT: (4) coi.r.uc[i\~eactiolis 111adeill

coriiiection \\'it11the hattcrs covercd b!. tliis AGREEMEN?': ( 5 ) [lie ~iegotin~ioli
                                                                                   of rliis ;\GREEh.IENT

           but nor limited to. inediatioli costs; and (6) thc pnyllicnts niadc to lie UNITED STATES
iricl~~dilig.

pursuant lo ,his    AGREE~VENI..           \viII be ~l~inIl.o\\:ablc
                                                                 costs Ibl.all), Gover.n~l~c~l[
                                                                                           PII~POSCS alld \\.ill be


scpnratcly accou1irc.d for by I.I'AA.

         13.        IIAII.I'ILS' COSTS: Tlie I'AlIl'lES shall cacl) bear rlleil. o\vn legal and orher- costs

i ~ i c ~ l r r eindconilc'crion \\.it11 this ~liatter.incl~ldingtlic preparalion and pcrl'orrnal)ce o f tl~is

AGREEh.1ENT.

X.       V O L U N ' T . A H Y :\G' l i E E b l E N p I ' .

         A l l Parties represell1 t l l a l t l i i s AGREEMENT is freely and \loluntarily cntered into \vi~lioutany

tlegrcc of durcss or comp~rlsio~i
                               \ \ Iintsoe\>cl..



XI.      (;OVtCIlY[SG'LAL\':

         Tliis AGKEE.\IEN*I' is go\,erned by the la\\*s o f the Unitcd Stares. .l'lie PARTIES agree that

cscIusi\.c ji~risdictiona11d\!cliue for any tlispute arising betwccll and alliollg tlie PARTIES ~lntlerthis

A G R E E L I E N T shall be t l i e Urlited SI~ICS Ilistrict COLI~Ifor ~ l i cEaster~iI>istrict o f Virgiriia.

XII.      1':IliTlES B O l I N I ) :

         Tliis AGliEEbIENI' A N D RELEASL: slial l apply lo i ~ l i dbe billdilig upon tlie pill-ties. rlieir

sLiccessors. assigns, and lieirs
SELF-GOVERNANCE I'IIOGRAMS. N o later than thirty (30) days aftcr this AGREEMENT has
been signed by tlie par-tics, II'AA will iml>lenient and agreqs to mailllain a self-governance prograln
that includes a Business L;thics Program that covers all employees. The Business Ethics Program
sliall be maintained so as to ensurc that ITAA and each of its c~nployees.subgrantees, contractors,
and subco~itractors~iiain[ai~i  the biisinc.ss lionest!l and integrity recluired ol'an NSIy grantee and that
17'AA operares in strict compliance \villi all applicable laws. regulations. and the terms of any
Government grant or contract. The period of future obligations assumed by ITAA under this
Agreement shall be threc (3) ycars from tlie effective date of this Agrcen~cnt.The "effective date"
shall be the date on which the Iinal signatory to this .4GREEMENT executes this AGFEEMENT.

ITAA represents that the Business Ethics Program includes the follo\\.ing cornponents:

        1. Central, I-Iigh Levcl Progranl h/lanagenient. ITAA has designated Joseph Taskcr to be a n
independent Ethics Ad\lisor-. reporting directly to the President' o f lT.4.4. The Ethics Advisor is
responsible for maiiaging all aspects of [lie Business Erllics I'rograni. including [lie development,
iniplen~cntarion, operation. . a n d continuing ovcrsi_glit of the Business Ethics Program and the
Inforniation ancl Edi~ca[ion1'1-ograiii.

                2. 7'lie Ethics Advisor \ \ , i l l s s n . s a s tlie focal point for coml~lianceand inter~lalcontrol issues
and \vill ensure rlic I'rc.sidc.111reiliains a\varc ol'the efficacy o r the ITAA cfl'or~sro ensurc conipliance
\ c ; i t l ~ federal la\\:s and regulations regarding the use and espenditirre of NSIT award funds. Such
responsibility includes revie\\/ of'awards. dc\!clop~ne~it                    of training PI-ogr;-lmsarid conipiia~ice\vitl~tliis
Agrccmc~lt2nd ~ I I I ol~ligatioiisher-ciii1dc1-. iiicliiclin: tlie subinissiori oI'aII reports anii cc~~tilications.

                 I'Iic I:tIii~s i\cI\~iso~-
                                         sli:111 iii\,cs[igat~all iiistr~ncesof'sirspccted i~iiscontlucta ! ~ dsliall report
          7    .

          3.
iii\vr-iting 1.1ielindirigs to tlic 1'1-csiclcn~lor mailagement 1.espoiisc.. Saiil nianngcmelit response shall
be i l l \\.ritirig and sliall bc ~~soviclccl    to [lie Etliics Advisor. NSF and NSI: 01G \vitliin rhirty (30) days
of the receip~by mnnagcmcnt ol'rllt: Ethics Ad\isor's report.

         4. l'lie Ethics Advisor sliall dc\:clop ivrittcn policies and procedures designed to ensure
conipliance \\.it11 all applicable la\\,s. rcgirla~ions.and [ernis of N S F grants. including. but not limited
to NSF general grant conditions, NSF special grant conditions. and ObIB Circulars. Such policies
sliall address detection. response. and pre\!ention of recurrence o f niisconduct. Copies oral1 policies
and p r ~ c c d i ~ r cdc\relopcd
                        s         bj, rlic F;tliics AdLrisor and adopted b), [Tf'ii'i \\:ill be providcd to NSF and
NSI- OIG \vitli rhi. Iil-st a n n i ~ a lccrrilicd rcporr required 1iercundc.r.

CO1)E O F DIISIYESS ETHICS. No later than thil-1:- (30) da!.s alier tliis AGREIMEN'I' has bee11
signed bj; the parties. lpr.4r'i \\fill adopt a \\.rirten Code of Busincss Ethics (Code). The Code will be
circulated to each e~iiploycc. .4fter rcading the Code. each current eniployce \ \ f i l l sign. in a
certilica~ionrcgistcr (Register) ro be maintained by ITAA and open to irispec[ion by NSF and NSF
O l G , that he or she has read a~iclunderstands tlic. Code. At least oricc' in each calendar year. each
then-current cniplo)lce sliall I.c.pent tlie procedure of reading the Cotlc and signing tlic licgistel..
M'itlii~i tn.0 \\leeks of slni-ting c~iiploynicnt\\!it11 ITAA. new e~uploycesslinll scad the Code and sign
tlie liegistcs, indicating that lie or she has read ancl uriderstands tlic Codc. Within sucli two-week
per-iod rhe lie\\: cniploycc's i~iimecliatc supel.visor 01-other management pei.son shall discuss rhe
conlcnt anil rccliiir-crlicnts ol'tlic Cloilc \\.it11 tlic lie\\/eml~loyec.

INFOI~~IIYTION A N D .ISI)IICA'TION PIIOGIL-IkI. No latcr thari tliir-ry (30) days after this
AGREEMENT Iias been signccl by Ilie partic's. I I A A will inslitiite and shall riiaintain an information
    and education program designed to assirre that all employees and subcontractors are aware of all
    applicable laws. regulations, written policies and procedures and standards of business conduct that
,   en~ployeesand subconrracIors are expected to follow and the consequellces both to [he en~ployee.the
    subcontractor. and to I'I'AA that will ensue Croln any violation of sucll mcasurcs. In addition. ITAA
    shall provicle training lo its e~iiployezsl.egarcling NSF awards ancl contracts. l'rnining consists of
    compliance training, plus at least one hour of live initial training in the Business Ethics I'rogram for
    every.e~nployee,plus. each year for each employee, not less than one liour of live cthics training.


             1. Annual Training - 'l'his training shall be provided on an annual basis to all eniployees..
    Certification that this training has been and will be accornplishcd in accordance \vith this
    AGREEMENT shall be pro\?ided by [TAP, to the NSF and NSF OlG. Thz certification shall describe
    the contents of tlie lrailiing and attach a copy of the latest training rosier. This training shall include,
    but nor be limited to: financial c.ont1icts of interest. "seeking eniployrnent" and post employnient
    restrictions. orpanizatiorlal c o ~ ~ l l i cof
                                                 t s interest, protection of go\-erniiicnt and ~ i o ~ i p ~ ~i~iforniation.
                                                                                                               blic
    gifts to Go\'er~inient cmplo!.ec.s. use of Go\!emrnent resources. ITAA's u ~ i t t e n policies and
    procedures and la\\;s and rcgula[io~isapplicable ro Govcrnmcnt grants and oonrracrs. including NS[:
    general granl condi[io~~s.

             2. I ~ O S I C I - - l'l'i\i'\ ~ l i i ~ nlaiiirain
                                                      ll         a rustcl., which shall be signed by all pcrsonl~el\\;lie undergo
    the tl-ailling. Tlie cei-rilicario~irosrcr s1i;ill conrain ttlc namc oC rhi. employee. Ilisihcr tirle or posirion
    and tlie date ol'tlie 11.iiit1i11g.

            3. 1icco1-ds- I'I'A:\ sliall ~rclainrlic rccol-ds of [I-aini~ig      ~ 1 1 l c 111iaC;ctliclnl ;t\;:tilablc upo11 r.cques[
    10 thc NSF' a ~ c NSI:
                      l      01G Ibl- 1111-ec( 3 ) ~ C ~ I I - S17-AA
                                                                 .    agr-ces to ~iiakc[lie trai~ii~ig        rccords a\;ailnbli. for
    i~ispecrio~l                   ~ S [rlic NSI- a~iciNSF OIG.
               ~rporiI - ~ C I L I by

            4. 1,aneuaocs - /'\I1 \\-ritrrn niaterials and training related to llie B~isinessE~hicsP~.ogram\vill
    bc pro\.idcd in I'nglisli arid in ally otlirtr la~iguagrnecessary ro assure that each c.tiiploj.se undersrands
    all elenicnts o f any \vriUcn or oral presenrarion.

            5 . Reporting a ~ i dIntOrri~arioilResources - I'I'A4 will prominently posr it1 common work areas
    a notice thar provides the NSF OlG hotline relephone number- and the hotline Office of Inspector
    General tclepl~oiie111111ibcr   01' iili!. orller I:edel.;~l azeric! 'froni \\:hioh i r recci\.es Federal funds. -fhe
    purposc o r rhis norice is ro enable c~iiployces to make conlidenrial calls reporting suspected
    misconducr andlor ibr asking ijucsliori, rela[sd ro business etliics 01. busi11c.s~co~iducr. Irl addition.
    this notice \\.ill include a sratsnient rhar ITAA is coniniitted to complying wilh all applicable laws and
    re_eulations in the conducr of irs business. A copy of (lie norice is Exhibit 1 lo rliis AGREEMENT..

              6 . Emplo,.lnc.n~ 01' S~ispc11dc.dOr Debarred Indi\riduals Or Indi\~idualsWith Conflicts Of
    Interest. I'TAA shall nor kno\+.ingly e~uploy,\villi or without pay, an individual who is under.
    indictnicnt. con\licrcd. or lis~cdby a I'ecleral Agency as debar-red, suspended. or otlie~wiscineligible
    for. l-'ederuI progsariis. In 01-clcl.ro carry out tlie policy. ITAA shall make reasonable inc1ui1-yinto tlie
    status of any porclirial cmplo!lee or consultanr. Such reasonable i~icli~iry      sliall i n c l ~ ~ da[
                                                                                                          c . a rninimuni,
    review of [Iic G ~ I I C I . O
                                 Se~.viccs
                                   I         Adriiinistrarion's (GSA) Escl~~clcdI'arties Lisr System (EPLS)
    accessibla on [lie li1rc1-ncrat Ilr113:/l\\.\v\\;.i.pls.gc)\~
                                                              . This policy cloes 1101. ~-ccl~~i:.c  lTAA ro rc~.lnir~aie
    the employment of incli\:icluals \\.lie arc indicted or becomc suslxnclcd or arc pt.ol)oscd for debarment
    during their e~iiplo!~~iie~it    \villi ITAA.      I1'AA. however. will renlo\,a such e~ilployecss tiom
    rcsponsibiliry f~11. or involvenie~ir\villi ITAA's business affairs until r lie 1.csolutio11oi' such suspension?
proposed dcbarnlent or exclusion. In addi~ion,if any employee is charged with a criminal offense
relating to business or otherwise relating to honesty and integrity. ITAA will remove thal enlployee
immediately from responsibility for o r involvement with ITAA's business affairs. If the employee is
convicted 01. debarred, [he policy requires that the employee will be terminated from elnploynlent
\\.it11 II'AA. ITAA slnall notify tlne NSI: and NSF OIG of cach sucli perso~uielaction taken arnd the
reasons therefore, within 15 days of tllc action. ITAA's reasonable inquiry into the statils of any
potential employee or consultant will also include an asscssmcnt o f pcrsonal financial conflicts of
interest. any pre-existing or potential organizational conflicts 01' interest. a s well as any pre-existing
post employmcnt restrictions \shich \vould preclude tlne individual's \{-orking on the instant
Government contract. If an employee or consultant has or acqilircs a financial conflict o f interest or
a n organizational conflict of inkrest, ITAA shall infornl the NSI: and N S F 01G and shall remove said
employee or consultant f r o n ~any aspect of the NSF grant and replace said employee or consultant
will1 a person of equivalent skills and abilities.

I~lsl,ection,Airtlit, sntl K c \ : i c ~ liigl~ts.
                                         ~-        In addition to any orhcs riglit rhal NSF OIG lias 13ilssuant to
N S F alvarcl conditions, this agrcemenl, or any other autliority, NSF OIG may examine and copy
I-I'AA's rccords. including audits and audit \vorkpapersl Ibr 1.11~       purpose of \~erif!pins and c\,aluating:
(a) ITAA's compliance \\:it11 tlne t~rrinso r this Agrsen~entand (b) I'I'AA's conipliaiice \vi\li any NSI:
requirenients. lTAA shall make tlie records available ar an!; reasonable .time for inspection. audit,
aindor rep~.oducrion. Funlncriniore, l'or purposes of this provision. NSF OIG may intc'rvie~vany
relevanr I I A A emplo]l:ee a1 [he e n i p l o y c ~place
                                                      ' ~ of business dur-ing normal business hours or ar sucli
other place and rirne as may bc ~iiutuallyagreed upon ber\veen the employee and NSF OlG. Relevant
cmployces arc. [hose individuals ivirh a rolc 01- respo~lsibiliry i l l rlic application for, rcccipt or. 01-
adi11i1ii~t1-iition
                 o1'NSF a\\;ards and (hose indivicluals ivlio coiiduc~(31-cijcctssupponed by NSI: n\vards

1iepo1-ting liequircnicnts. In Iicu ol'a Ibrmal audit. ITAil \ \ . i l l annu:illy provide NSF and NSI: OIG
wit11 a ivritten report, ccrtitjed to by [lie Ethics Advisor, ~.ellcclingthat ITAA lias assessed the
eflicacy o r irs Business Ethics Program and irs Informatio~land Education P r o g r ~ during                     i        that year:
idcntiiying thc srcps i t has takc~nto pcrl'orrn such assessnnenr: and stating whether ITAA's Lvritten
policies and procedures designed ro c'nsure compliancc \virli all applicable la\vs. regi~lationsand
terms of NSF grants. including bur not limited ro NSF general grant condirions, NSF special granr
condi~iolisand O h l B Circulars. lin\le been Solloived. Such report will identih any deliciences
discovered as a result of this assessment: and shall idenril-y tins corrective actions lTAA has
u1idcr.talit11to addl-css sucli deliciellcics. 71~lii:       assessment sli~llli~icludeil I . C V ~ Z \ V of II'AA's lillalicial
sysrcms: an asscssnient 01' rlir irlrcs~ialcolirl.ols 011 s~lcllIlrlalicial s!srcni; aiid a revieiv ol'nny NSI:
                             ~ l g degl-ec to \\lllicll ex13~iidituresulldcr. S I I C I ~ ; I \ \ ~ L IIiiiv~
a\va~-ds.c s ~ l ~ n i r i i tlie                                                                       . ~ s bccn i i i ;~ccor.da~ice
bvitln all applicable laivs, regulations, ant1 this AGFEEh?ENT. Such reports shall be due one ( I ) year
after tlic effective dare of this AGRI!EivlI'NT and at each of tlic rwo ( 2 ) years thcrcnfter. The Ethics
Advisor ccrtificarion shall include a stalement that all dcficicncics h a w been reponed and addressed
and. cscept Tor those matlers identilied in the report, ITAA is in coriipliance \\-ith all rcquise~ncntsof
Federal law. regulations, and this i1GREEh;lENT.

        I . All nudir workpapers or. orllrr suppol-ting docu~iicnislor audits or reviews of compliance
with this Agreement shall be rerailled by I'TAA for tlll~c:(3) yeiirs lbllowing tlne termination o f this
Agrccn~eiitand shall be made available to NSF OIG upon r.ccltlcsl.

       2. Il\rc.ry niatrrial \,iolatiorn d~scovered during any audit o~ review shall be reported
imnicdiately lo NSF and NSI- OIG ant1 remedied nithin sixty ( G O ) days of ITAA's kno\vlcdge of
such nnaterial v~olation. A "marerial violation'. is one thal has a significant ad\.erse impact on the
administrative, f nancial.'or programmatic aspects supported by NSF Awards. ITAA will report its
findings concerning the material violation, its actions to correct such nlaterial violation. and any
fiirther stcps ITAA plans to rakc lo address such material violation and prevent recurrence of the
violation.

        3. In the event of material breach of any terms of this Agreement. in addition LO actions
undertalcen by the Dcpartnlcnt of lustic:. NSF OIG may rckr such breach to NSF for initiation of
administrative actions including, but not limited to, the suspension or terminalion of any or all NSF
awards and/or suspension of I-I'AA.
                       INFOI<MATION TECHNOLOGY
                        ASSOCIATION OF AMERlCA
                                           Ethics Hotline

The Int'ornlation Technology Association of Xrncrica ("ITAA") is commitled to
compl~.ing\\it11 all applicable la\vs and regulatiol~sin the conduct of its business. As
such, \vc need your assistance to enstlre that \i.e maintain the highest elhical standards
possible at all times.

Below are some important phone ntilnbers for you to be aware of. The purposc of thcse
nun1bel.s is to pro\:ide you, t l l T~ A A employee, ivith an opportunity to place confidential
calls ro report S L I S ~ C C LI C~ ~~ S C O I ~ ~aiid/ol.
                                                   C I C [ to asli cluestions related to husincss c~hicsor
busint'ss condt~ct.




          Scicncc F o u n d ; l t i o ~ l ' sOl'lice 01' 111sl)ectoi-
h\;atior~ilI                                                       Gcr~cr.;rl:(703) 292-7100
                                  NATIONAL SCIENCE FOUNDATION
                                      32CI LAJILSONBOULEVARD
                                     ARLINGTON, VIRGINIA 22230



                                            N O V 2 0 7nn7

     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Marjorie B ~ n u m
7505 Calderon Ct.
Unit A
Alexandria, V A 22306-2266

        Re: Llebar-merit

Dear Ms. B y ~ ~ u n i :

On ,4ugust 22. 2007. the National Scie~lceF o ~ ~ n d a t i o("I\JSF")
                                                              n        sent >.oil a Notice of Proposed
Debarment in \vliicl~NSF proposed to debar >:oil fi-om directly or indirzctly obtaining the benellts
of Federal grants for a period of five years. The Notice sets forth in detail the circumstances
giving rise to NSF's decision to propose your debamlent. Ln that Notice, NSF provided you wit11
thirty days to I-espondto the proposed debamlent.

Over thii-ty days have elapsed and NSF has llot 1-ecei~veda I-esponse. Accordingly, you are
debarred until November 1, 2012. Debaiment precludes you from receiving Federal financial
and non-financial assistance and benefits undei. non-procurement Federal programs arnd activities
uilless an agency head or authorized designee makes a determination to grant an exception in
accol-dance \\.ill1 ? C R $ 1 80.175. NOII-111-oci~i-emeiit
                                                       transactio~isi ~ ~ c l i ~y.an(s>
                                                                                  t l e coopel.ali\-e
agreements, scholarships, fello\vships, contl-ac~sof assistance, loans, loall guarantees, subsidies,
insurance, payments for specified use, and donation agreements.

I11 addition,you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
debarnlent. 2 CFR 5 620.1 15. During the debaimlent period, you may not have supei-visoly
responsibility, prirllaly management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executil~eBranch of the Federal
Goveilment.
If you have any questions regarding the foregoing, please contact          , Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.



                                                   Sincerely,



                                                  Kathie L. Olsen
                                                  Deputy Director
     National Science Foundation
       Office of Inspector General




                  Investigation Report
                Case Number A04120071
                               16 March 2007


                                                             ---

I                                                                               -
                     1nvesc~g;ltjvllI<c.l,or[ t l ~ cj~l:ol,et-tyo f the NS17 0I.G xncl may Ihe cliscloserl oulsicle
'J:'lnis Cc~nfidc~lllal                 IS
    NSF only by 01G uncler the Freedom ~ E T n f o r n ~ a t i oancl                   $$ 552,552a.
                                                                 n Privacy Acts, 5 U.S.C.

                                                                                    NSF OIG For11122b ( I 1/06)
                                                      Summary

The Office of Inspector General (OIG) has concluded that the Subject has willfully
violated requirements related to the execution of an NSF award and has engaged in acts
which are sufficiently compelliilg and serious that the Subject's present responsibility has
been affected. The Subject's acts include:

    1. her role in the 'filing of a Federal Cash Request misrepresenting the
       purpose for the draw down of NSF funds;

    2. her role in the filing of a Federal Cash Transactioil Report (FCTR)
       rnisrepreseiltiiig when IVSF funds were spent;

    3. her filing of a Final Project Repoi-l 1111srep1-esenting
                                                              the status of an N S F
       award:

    4. hcr actions ossociatetl \villi preventing NSF and OIG fi-om clisco\.ering
       \\,hat liad occu~-sccland:

    5. her role in the violation of rules and reg~~lations
                                                        governing NSF a~vards.

I'ursuant to 45 CFIi 9630 ct seq . \\'e ~ecommentlt h a t NSF:

            Se~lcla ! i ~ t i c &t ! I ' l ) ~ ~ ; l ) q ~ g ~ - ~ b , ; l 1 - 1 1t~l e~1cSubjgct
                                  ~   ~                                                   1 t ~ t o informing hcl- Itllar
            she has been found to lia\le \villfi~llyi:iolated requirements relatecl to
            an NSF A\\:astl. and to have engaged in conduct so sel-ious and
            co~iipellingthat i t affects her present responsibility;

            Debar tlie Sub!ecr foi. a pel-iotl of 3 years fi-0111ti~ialdisposition of this
            case;

        w   PI-oliibit tlii: Subject horn s e r ~ ~ i nas              g a peel- I-eviewer: acl\;isor o r
            co~lsult211it (;)I- i l 1 1 . e\.C;II-S
                                            ~       ffi.0111filial tl isl~c.)sitio~i
                                                                                  i ~ this
                                                                                      f case; aricl

            Requil-e tlie Subject to submit a certification that she has co~m~~letcd a
            profcssionall~~ rccognizecl course covel-ing tlie proper administratiun of
            Federal awards.
                                                                                         OIG's Investigation

A. Background

On September 1, 2001, NSF awarded $249,509.00 (the ward")' to an ~nstitution.~In
2004, during the course of a proactive inquiry, OIG received and reviewed documents
related to the financial management of the Award. This review, which included an
examination of the Institution's General Ledger and supporting documentation, revealed
that the Institution appeared to have spent over $32,000 in Award funds afier the
expiration date of the Award

l'he initial t e ~ mof the Award was fiom Septembes 1 , 2001 to August 3 1, 2002. The
Subject, also the Principal Investigator, 4 requested a First No-Cost Extension on the
.4nrard, which extended the expiration date an additional year to August 3 1 , 2003.' On
:i\i~gi~st   ?_? 3003, t\vo (lays before expi[-ation, thc S~10jcctrcquestcti a Second No-Cost
Exte~lsion.     i -The NSF Progl-am Officer7 denied this retjuesl on September l l , 2003, via
~a:.;t~-:lne.'     On September 15. 2003, the NSF Pr-{lg?-;lmOfkicer reitel-atcd I~crtlenial in a11
email sent to [he ~ubjcct.' On September 16, 2003, the iUSF Program Officer told thc
Subject again, this time orally, that "no new costs incul-retl after the expil-ation of..the
;\\val-cl \vould be hdnol.ed hy NSF"" ant1 also cs!,licitl\. stntctl that NSF tincis c n ~ ~ not        ld
be l~setlto co\,el- the tra\-cl costs of a staff ~~ncrnbc~-     ihi.11 cin A\\-a~~d-sclaie~l  ti.a\:el (see
F i ~ u r eI ) . ;4ccortlins to tlie NSF Pro?~-amC1ffici.l-: "I sl:~ti'cl fi-ankl? that [[lie Inst~tutinu]
\I-oulti11n\:cto absorb those costs."'.'




I NSF : i \ \ ~ i - c l I-IIUI 0128850 c~~titltcl                                            'Tllc Digital C ) ~ ~ C I ~ - ~ I I' I; I I !~! I, I ~ I -Is-~i rI~~k\ i>~tllc                                 :~ gI l ' Irld~~str>,   \\,it11
htinol-ity-Sel-vingInstitutio~ls."See T M 3 1 . This Award is a transaction covered by tlie NSF debarment
regl~lntioil.See 4 5 CFR $620.970 (a) (1). The pnryose of the .-i\\.al-cl??.as"to iruprove the tecl~nological
anJ ~ ~ c d a g o g i cinf~-as(luctll~-e"   al                                of ~ninorriy-ses\;ingi~istitutjo~~s.
'   1nTo1-~~iation                    Technology ~\ssoci;~liorl                                  of illllcrica jthc lilsrirlit~cir~l.                                     ;I rll.~n-[?rolit          ir-ntlc. ns.<ilc'ia~ior~    l'l~e
i ! l : . i l ! l . ~ l ~ ( , i ~ .~j.:is:I ] ~ , I I ~ ~ ~ : I ] ~I ;I I 1I 1~ 1 I~ . 1 1 ~ ; 1 1 1 ~ ~ 1 : : i i i ?Ci !l . , ' . C I . L . ~ \ 11;. t i ! : , I : ! ~ , I ~ I I I!. L
                                                                                                                                                                                       ' : ~~LII I~ ~
                                                                                                                                                                                                    ,I~I~JS ~ IC
                                                                                                                                                                                                               . L .Ii t. 1 I.: $i'~Ll!.~,JslJ.
' See TAB 2 for General Ledger.
4 h.1aqol :    .,         ie Byllurn: Psincipal Il~\:estiga(o~.                                        of the A?\.nrd alld ths I n s t i r \ ~ r i o ~Por~nel.                               ~'s          Vice 1'1-esidel~tfor.
\\'oskfol-ce Development and A~~thor-ized      Organizational Repl-eszntati\;e. I'lie Subject is no longer-
emplnyetl b y the Instihltion. Pursuant to the debar-ment reglllatiou: the Sul~icct\\!as on agent as \yell as a
particil~ti~lt and 1jrincipal in the covered transactloll. See 45 C1:R 3620.915: $620.980, $620.995 ( a ) . While
llle Iilstitntion is tlie awardec and the recipie~~tof the f i ~ ~ t d;in!.
                                                                       s , Ill11)1-operco~lductof the I~lstitutioncan he
imliu(rd to the Subject because the Sub,jcct "eill~el-particrlj:rtecl i n . h:~dk~lo\\.leilgeof, or reason lo I<~io\\:of
t l ~ cirnpropcr cnncluc~."See 45 CFR $(i20.630 (b). I~lileetl,Iicrc. the Sub,jcct liistigated'if 11otcfi'ectliated the
ilnlx-olj" contluct her.self.
' See TAB 3
   s e e l.AI3 4 .
s
        See FastLane clenial at TAB 4 .
' Sce ;\flidavit of the Prograln Ofticel. and acconlpanying enla~ls:-I'.413 5
 1 (1
        Iil.
                                                                                                  I NSF reiteAtes denial via.
                                                                                                    email.                               I
                                                                                                  II   NSF reiterates d e ~ u a l
                                                                                                       via telephone.                I
                                                            I   L

                                                                           Figure 1 .

13. T h e lmpropet- Acts

              1. T l ~ eFctict.;~lC';lsh Request

On September 17, 2003, the Institution's                                 drew down fi-om NSF the
'1.2-17.1 1 !-c~nai~li~igi i l [hi. .-\\\.3rdi3
                                              (Figurc 2). I i l Jailig SO, illc             \\ C I ~

hllcr\\li~~g
          the instriictioris gi\,en to herb). the Sub,]eclin n September 15, 2003 einail:

                           I \\Ins i'ra~iticnlly lookins for ~ O L on   I   hlonday nftemoo~i.
                           [The NSF PI-ogr-a111Officer] at NSF (our program officer)
                           rejectecl O ~ I I 110-cost
                                              -        exteiisio~irecluest! C n l z j 7 0 r l p~rllr r ' o \ ~ ' l l
                           V ~ O I ~ C \AS.-ZP
                                        :       lo coi70-zr.r? (eml~l~asisndc~ed).['~]

To "1,ull do\\:n3 the A\\-a~-df~~nclsafter tlie espisalion date, the (Ira\\ iIo\\.11 \\-as
clinracterized as a rcimbursel~ient." This characterization was false; tlie majority of the
cash i-cr.cli1est.$27.572.16. \vas not for expenclitui-es ilicul~-ed111-e-expiration.I6l~nsteail,the
ma-iority of this $27>572.16collstituted an ac11;ance Cos expenses yet to be identi licil.
I     I c      i       i                         ';l~id;I l ~ ; ~11101~111s
                          C)l..c~. ~ I I C t111.c~                li                 11'1I ~( I ~I C
                                                                         SII~ISC'IILIC               c.~i(!01' I I I ~
Ai\-ar-d?the $27,572.16 \\.as spent by the Institution on items such as salary, trayel and


l2   2
I'  Seple1nbe.r- 17, 2003. cash request is at TAf3 6 . Allhougli t l ~ e                                                                 is in\rol\iecl in thc maltel-s
lierein. she \\:as acting at tlia dir-cciiciri o r tile Subject 01- oli i n f o p l o v l d e d l o her b) [lie 5'11bect anrl
SIIC cooper-sled dill-ilig tlie ill\.estiga~io~i.                                        See TAB 7 alld T.43 8. I-Io\\,ever,elit(                              actiolis
may be inil~iitedto tl~cSubji.cl. See 4 5 CI'R 46?0.630(b). \\!e have not reconimelidetl h a t NSF lakc an!.
ai:Liorl ngnirisl tlie
    Sct h i 0 1 of ~ l l e ~ i l l t C i - i . i e \a[~I-;iB                                       l    7 a1ir1TAB 8 [or tile elllire text 01(lie Subjrct's
Scplelnlx~-15. 2003. eiilail to                      he                                                This Sel?lemlx~-15. 2003. elilail nJns nl~t;~ilietl      cIl~~.i~iv
                            UIII!.; I I I; IO
ili~: I I I . , . L , ~ I ~ ~               ~ ' ~IL :~I . t!l i t I I ) S [ I I ~ I [ I O I retz~i~ieci
                                                                                            ~         the \,'er~ableLLIJ l:i\\; lii-111.
I ' Sce 'f.-\L3 6.
16 -
    (1110ccohc1-20, 200.7; tlic ~nslilution's-inel                                                               \\~ith@I(; 1nvestigato~-s.Dill-ing iliis
i i i t i ~ l. i          ~ a t l ~ i ~ itllal~[lie~ filial                                          e C:ash
                                                                                                        r l Iiequcst ol'SepLember- 17,. 2003. i~icludeillirrlils
thal siiniiltl nclt Iiave heell chnl-aclcrizetl as a rei~iibursenien(. Sce T!U3 7 .
copy expenses related to ~ w a r d ~ u r p o s e s Thesubject
                                                   .'~        approved these expenses and
signed many of the Expense Reports associated with the post-expiration spending.'8



                                                                                 NSF reiterates denial via email.
                                                NSF rejects the



                                                                                  H
                                                request via
                                                                                       'The Subject directs t h e q l )
                                                                                     -'pull              down" the
                                                                                       remaulhe funds froru NSF.


                                                                                           NSF reiterates tlenial    1.i~




                                                                                           Irlstilutiorl dl-ar\.s t1un11
                                                                                           $32,217.11 balance of
                                                                                           ,\\rnr.d fro111 NSF, cnlling i t




           2. The Final FC'I'R
                                                                                            -.
On Novelllber 14, 2003, the Institution, via its                      submitted its final
Fedel-a1 Cash Transaction Iiepol-t (FCTR)'"~~- tlie' quarter ending Septemhel- 30, 3003.
This FCTR represented to NSF that all NSF f-u11clsI\:~il been spent as of Septc11ibe1-30,
2003,'"with the following certification:

                       (A) That to the best of my knowledge and belief, this report
                              ?I
                       is t,n~c[; i l l all I-csl~ccts
                                                     ant1 tll:it n l l clisl~u~.sc\llc~lts
                                                                                       Ila1.c
                       bee11 made i'oi- the pilrpose anti conclitions jincluciing cost-
                       sl~al-ingrccluirements as statcd in the NSF gra~ltpolicy
                       manual) of the awards. [=I


-    -


I?
    See (iencl-al Ledgel- a ( TIZB 2.
IS
    See 'lAL3 9 for Expense lieports signed by tlne Subject.
I " Each n\rn~-dee      is scquiretl by NSF to subunit a Federal Casli TI-allsactionlieporl at tlie erid of eacli qllarter.
The 1,lil~Joseof ~ l ~ er.epol-!sw       is to tell NSF Ilo\\. mllcln of i!s f1111dshn\.e I3ec.11 spent or1 the p r n i r c t dul-in? !lie
~.ele\:a~it  cl~~al-le~.
20 See TAR 1 O for tlie 1'C:TIi [or illc qlras!ei- ended S e p k n l h c ~30,   - 2003.
''                           tlne ilicli\.idual filirig the FC:TR tlint filsc: cer-tilicntion oi'tl~ereport is a crime S e t
    F n ~ t I ~ a n~.c~inilids
                    e
Ce~-tllicalic,npage, 'TAB I (!.
'-' See T.473 I 1 for a11 17C'fli'ssub~inittctlby tile Iristilutio~iatid :iccilrilpan);liig eel-tiiications.
37
-,'   \   -                                                                                                                                                                   -

      ,       This statement was false, in that as of September 30, 2003, all the funds from the final
              draw down had not been spent.23 This false FCTR served to conceal the actions of the
              Subject, and prevented NSF from exercising its reversionary interest in the funds.24

                         3. The Final Project Report

              O n November 17, 2003, the Subject filed the Final Project Report for the Award with
              N S F , ~thereby
                         ~     representing that work 011 the project had been completed. Yet according
              to the Institution's own General Ledger, NSF funds were still being spent. As noted
              above, the Subject approved expenditures of these funds.26 B y filing the Final Project
              Report, the Subject concealed this post-expiratton spending and perpetuated the false
              picture that NSF funds had all been spent by the expiration date of the Award

                         4. Tlie Subject's Lack of Candor with O1G

              ;Yo u                 1 1         i             i I11 Apl.il 2005, cluring a lneeting \t,il11 OIG
              ill\.esti~atoss,the Sublcct appeal-ecl to 1lal.e no kno\\!leclge that the Szco~~cl          No-Cost
                                                  ?r
              i!!stcll:;io~l Ilad bccn tlci~icil.- 011 hla). 1 1, 2005, Lilt l~lslit~ilion's
              reitesatecl tills i n R lettei- ancl ~ ~ r o t ~ i dNSF
                                                                   e d OIG \\.it11 a A.Iemo~-anclumu.siLte~lby the
              Subjecl ciisavowing all knowledge of the denial.

                                     I . . . ilci no[ r~'ciiI1ever heal-in2 back in \\:~-ilingabout this
                                     rcclues~. I II:I\.c110 S ~ C O I - C I of 0111. ~.i-il~~c:st
                                                                                             I~eiilgilenietl 11s-
                                     [Hie NS1: I'~.og~-:uni  Officel-1. Again if I liil~ikno\\.~l[hat our
                                     no-cost e.xte~~sion    hacl been rejectetl, I \\!oulcl certainly 11;1\;e
                                     halted all \\:ark on the project i m n ~ e d i a t e l ~ ~Absent
                                                                                                    .       this
                                     notificatio~i,ho\ve\:er, [the Institution] conlinued its tvork
                                     on [lie lx~o.iecluntil Decembel- 2003.['"

              In i \ u g ~ s t2005, OIC; in\!estigators presented the Subject with evidence [hat she did
              intlccd ha\.e kno\vledge tl~atthe NSF Program Officer llad denied tile Seion(l No-Cost
              Exlensioll of the A\\tarcl.- The Sub-ject did not pro\-icle a response n ~ h e nprcsentctl \\:ith
                                                         ?0



              tliis ~ ~ ~ . i ~ Cl cI I ~I 113s
                                           ~i c cI I C \ . C I - 1-~11-:1cLctl
                                                                          1le1.~ , \ . s i l tSc~~; ~I ~ C I I I C I ~ ~ .

              The \\.eight of the e\~icle~lce  does not support the Subject's hllay 2005 dcnial of
              kno\\~letlgc.Specifically? [here is a September 15, 2003, email where the Sul~jectri:plies
              to the N SF Program Officer:

              23
                  See T.-U? 2. -I'liz 2003 Geliel-al 1-eclgel- lists e s l ~ e ~ ~ d i l uoccu~-~-iiig~-es         a s ]ale as r)ecslilhci- of 2003.
              2-1
                  ..\gain: illtlio~lghtlic                                    -ertified this PC'I'II: tlie ti‘ltalit)' or the c i r c ~ ~ ~ i i s t : ~ ii~idicatc
                                                                                                                                                          ices    tli:it
              slic is [lot ~ , s i ~ n a ~ .rssl~o~isible
                                              ily                   for the ~nattel-sacldrcssed herei~i.and as n result, \ye havc not ~ ~ e c o ~ i ~ ~ i l e ~ ~ t l e t l
              {lint NSF cake               action ~regasdil~g           lier role in filing the false FC:lII.
              *'  See .T.-\N 12 fill tllc Final P ~ n i e c tliepnr(.
                  h i , c I .\I3 9 I?)I. :lri ljsl~erlscI(el,n~-tsigned ofl'on h y the Subject as late as 2 l N o v c ~ ~ l b c2003.               r-
              - ' S i c T.-41313 fol- A.101 oT.4p1-il2005 in(en:ie\v o f the Subject.
              79




              " Sc.c I':\U I3 fol- (lie leu1 o~~lieV-le(iel-                                                            to OIC; ant1 (lie acconll~all!i~ig
                                        i ~ ~ l t l ~I ~~j iitlie
              h ~ I e ~ i i , : ~ ~ ~1>r-el3al-etl             ~ i Stthjecr
              '!"S c c L.20 13 fill. A101 o f A u g u s ( 2005 inte~-vic\v                of tlle Subject.
                             Thanks for your note but I do need to discuss your decision
                             further. The remaining funding in our project is currently
                             covering [the Institution ~ r n ~ l o ) ~ e e 'time
                                                                             s ' ~ ] (he's currentlj~
                             on a TCUP visit this week), and we have already scheduled
                             campus visits until the end of the year. Without this
                             funding, [the Institution] cannot cover its expenses and,
                             thus, fulfill its remaining obligations to the project.[311

Fui-thernlore, the Subject's Septenlber 15, 2003, elnail to the-!instructing
her to draw down the funds also contradicts the Subject's stateineilt that she had no
knowledge of the NSF Prograin Officer's denial of the Second No-Cost Extension:

                             I was frantically looking for you on Moilday afternoon.
                             [The NSF Proqam Officer] at NSF (0111-progranl officer)
                             I-c~ected our no-cost estellsion I - ~ L I ~ SC:clil
                                                                                ~ ! .you pllll tlo,~,rz
                             1nurIq. ,~S,.IP10 cuI..er 11s.;)[e~llpll;~si.';
                                                                         a t ~ t ~ "'c1 c ~ ~

            01'cl-E . ~ p i r o i i uL~~~C I ~ C111. 11er exj!lit~latio~l
Co1~fi~sio7.i                                                                 of the tlraiv do\vn, thc Subject has
stated that she was confilsetl \\;hethe~-the A \ v d ended on August 31 or September 30,
               >

7003." 'Tliel-e is some e\-itlf~ice.;~~g,yrsling                t!!n! t ! ! ~ Cl.~l>jc'ctmny hny.rc !?.:cn ccrlf'i~sctl
                   9




                                                                          2.:
about tl12 date of expil-atin~l.at ..;c~~~ic          poi111 i n li11ii':       I-lo\i!e\:er: other e\zidence reti~tes
tliis.

The actual text of the I~lstitutioll'sFastLane sublliissio~inotifying NSF of t l ~ eFirst No-
Cost Extension expl-essly identified :\ugust 3 1. 2003, as the Awal-d expil-ation (late. The                    ''
Fil-st No-Cost Extension was sub~nittedby the Subject. In addition, the Second No-Cost
Exte~lsion,filed by the Subject on A u p s t 29. 2003. asks S(II-an extension of,/olc/-monlhs,
witti the A\vard to expire at the "enel of 2003."                           '"
                                                            If the Subject had a good-faith belief on
August 29, 2003, that the Award expired at the end of September rather than the end of
August? the Second-No Cost Extension n~ould]la\-e been for t h e e ~nontlis?not four.
Ful-thern101-e,in an August 20, 2(.!03, elna~lto the NSF PI-ogram 0ffice1-;" the Subject
s(;I~ccI:                                to cn~lat tllc i.11il i l f : \ L I ~ L I..S 3~s. Finall!.. tlli: tc.;~O ~ ~ ? I
              p i . ~ j ~isc t~t:llcil~~lcil
          "0111-                                                                                                            C
Szp[enlbes 1.5, 2003, e ~ n a ~tol tlli:                             t1cmonst1-ates that the Subject had
actual knowledge of the PI-ogsam Offices's tle~lialat the time the money \vas (11-a\vn
do\i,n. The weight of thc ci-iclence does not s u p p o ~that       . ~ the Subject was confilsed as to
the expiration date of the Awal.d at the time NSF fu~lcls\\!el-e clsa\vn do\vn.


j              n       w


-                                                                b e r2OiJ3, el~iailto [lie Program Oificel..
II
    -,
         Sec   T.435 Tor (lie S u b ~ e c l ' sS e l ~ l c ~ i ~ 15.
lL       See 'I'M3 S for entire text of (lie S t ~ b e c t ' seninil.
'I       See TAB 13 for the Subjec~'s~ne~nol.aniluln
                                                  lo the C)IG.
" See TAR 13 for the Jt11y 20?? emails l h e t ~ ~ . c e1l1c
                                                         n St~liivclant1 \l!e
A\valtl's exl~iralio~i.
" See Tr\B
36
                  3.
1-
         See T!LB 4 .
         sccl"413 5 .
36
         I il
                                                               OIG's Assessment

NSF has the authority to debar an individual who "commits a violation of the terms of a
public agreement or transaction so serious as to affect the integrity of an agency program
. . ..,>39 Such a violation occurs when the individual commits a "willful violation of a
statutory or regulatory provision or requirement applicable to a public agreement or
transaction . . ..,740 Furthermore, NSF has the authority to debar an individual for other
causes, including when a cause is "of so serious or compelling a nature that it affects [the
sub,ect of the debanllellt action's] present resPo~lsibility.""

A. 'The Subiect's Actions

Outlined L>elo\\r are the specific actions for \\~liicll this debamlent :ictic)li is being
~.ec~)lli~lleliclecl.



As notecl abolx, the Subject directed the                                                       of the Institution to tlra\\: tlo\\rn
I11!1c!-tl1:it the Sul~jcclk ~, -.. -tlic           ~ ' Ilistitution did not h:i\-c thc :i~lillo~~i[j-                ~ c ~, 1 ) c i i c i . Tilt: 0111).
\>,,a,\.lo ef'tkctuatc this \\.as to cliaracterize the &a\\: (lo\\-n as a " ~ - c i ~ n b u ~ . s t n ~fol-                                            c ~pre-
                                                                                                                                                             ~it'.
L . X I . ) I I . : I ~ I ~ ~ Iexpe~iscs.
                               I          Tliis c l i ; i ~ - : ~ ~ t e ~ - i \\,:IS    ~ ~ Tlic I I ~ : I ~ o I - ~ ~ . >I I.I C I ~ . I I ~ c ! x ;IL[LILIII!~
                                                                              z a t i okilsc,
\\.ell( to\\.al-cl unkno\\!n and illiitle~ititiedfuture expenses unclcr the Su11ject's co~itrol

             2. Filing a False I ~ c d e r a Cash
                                             l    Transaction Report

.4dditionall!;. the Subjcct. \\ill0 served as the Princip~~lI~i\.estigator,tlic Irl.;titution's
:\~~tIioi-izetlOrganizational Repl-esentative and a \'ice 1'1-esicient,\\.as tlle i~ltli\~idu:il
                                                                                              \\llo
ovessa\v the programmatic and financial administration of the A\\rard and thus bears
lx-irnnl-!. ~.espo~~sibilit!~
                         for the submission of the false Federal <.'ash Trallsnclion l ~ e ~ ~ o r t . ~ '



14s 11otecl abo\.e, by fili~iga Final Project Repol-[ on November 17: 2003:[lie Subject \Tins
re111.cscuting to NSIT that the work on the A~vardhad come to a close. NSF's GI-ant
Ge11el.al Conditiolls I-equ;l-ethat an a\vasdee file the Final Project licpor-t \\;i[hi1190 days
                         i o ntlle award.i3 By iiling the Final Project Rcpost \\:l~ilecontinuing to
of the c o ~ l ~ p l e ~ of
ivork 0 1 1 the A\\rard and spend N S F money, the Subject \\:as making a fiilsc I-i.111-esentation
to NSF regal-cling the complctio~lof the project.



"'   4i Cl;l< $ 62O.XOO (bj.
        -
.lil
     See -15C ' I 3 $ 620.800( b ) ( l ) .
.' I C;L,.. 45 CFR i; 62(3.800(dl.
" Sce i'oillni~[cs3 ant1 13.
-I5
     See TAU 15 fol- the sele\:anl GC:-I pl-(>\.ision111 effect at the time i-\ward made.
r

                4. Failure to Tell Truth to OIG Investigators

    The Subject's repsesentation to OIG ~nvestigatorsthat she was unaware of the denial of
    the Second No-Cost Extension or that she was confused when the Award actually expired
    is not supported by the weight of the evidence.

                5. Violation of NSF Rules and Regulations

    T h e Subject's actions" violated the following sections of the NSF Grar~tPolicy Mar~ucrl
    (GPM), the NSF Gram PI-oposnl Gtride (GPG), and the Office of Ivlanagernent and
    Budget (OMB) Circular A- 11 0, all of which provide terms awardees must abide by when
    they receive a Federal a\\ia~
                                cl.

    Section 25 l(b) of the NSF Gllh~I(NSF 95-26) states:

                            EXI'III:\ 1'IC)h D.-I'fE is the clnte specitied in the g 3 n t
                                              ~ . l , . \ lc?:l)c~lc~it~lses
                            l e t t ~ r:lf.!.<~.            ~<~~         I~I:I>. i 1 ~ 1 t clla~gcc]; l g i l ~ ~ l ~ i
                            tlie gra~it mrzept to satisfy obligations to pay allo\\!able
                            project costs comlnitted on or before Illat date. The
                            expiration date is tlie last day o f t h c ~ n n ~ l t [lAl5,1

    Ful-tllcr, Section 602.3o f tllc NSF GIlh:l ]~~-o\:itlei;                           t l l ~ NSF
                                                                                                ~i  fii~idscnn~iiitIlc usecl past lllc
    c s ~ i r : ~ t i o nil;itc of ilic i l \ \ L l i . i l L I I I ~ C S Stllcy al-e b c i ~ sllc~it
                                                                                                i~    ti) l i q ~ ~ i d a t\.slid
                                                                                                                            e     expenses
    noc~-ued111-io1.to the espi~.ntionof the a\\.i~rd.~'                             Sectioi~\'(A) of tlie GPG contains similar
    restrictions.'"

    NSF allows the ad\,ance~nent01' awasti f~~lltls           only i l l very limited situations. Such
    siluations can only occur \\:he11the awardee has an interest hearing bank account set up to
    receive the money, the inte~.eslfi-om which revel-ts to N S F . ~ ' The Institution did not have
    permission from NSF to recei\?e a n advancement of f i ~ ~ l d i n gdid      , not place the filncls
    \vitliin an intel-est beiiri~lz; ~ c ~ o ~ant1
                                               ~ ndid
                                                   i : not return the interest fi~ntlsto NSF.

    Uhli; C11.culai ti-1 1O S L I ~ ~ i:,
                                      L I-I..25
                                            ' L pso\,ides ilia1 a r e ~ ~ p i e]nay
                                                                                ~ l l c1l;lrge all ;~\varclonly
    allo\1~al2lecosts I-esulting from obligations incurred during the award period 01-pre-aural-d
    costs aulhorizcd by the an.asiling agency.-I 0

    44
         Altl~ouglithe Instit~ltioilis the ;r\\-a~-dee.                        tile Institutioil's actltjns a1.e being i r n l ~ ~ ~ to
                                                                                                                                     t c dthe Subject as she
    \\Ins (lie PJ: the ,!'\~~tIiorized01-gailizatio~lalRcpresentati\:e, a Vicc Presitlent, and the person tlirougli \ ~ ~ l l o n i
    tlle Jllstitlrtio~iacted.
     ' j Scc 'T:\[3        15. TAU 16 C O I I I ~ ~ I ICSS I I - ; I C ~ SFir0111 (lie Gl'hl in e f k c t a t (lie tilile the ,-\\~.ard\?:as ~iiatleand the
    ~ i i i s c o ~ l t l toccurretl
                           ~ct         and f1.0111 tile curl.c~ltve~.sion.Tliese Il;~sb e c ~ ino substanti\:e change.
    4"l'..4~ 17, clyain. al(llougl1 lal-~ielyn~lcllnrlged.the 1-ele\:anl pro\.isioll in effrct at the t i ~ n etlie !'\\~,al-il \\.as
    111:1clc~    \\.llc~ltlic : ~ c tO C C L I Y I . C ;~~1 1 1 ~I I1I clicct I I C ! ~ \ , > a1.c ; i l l ;lt 1 /'\I.; 1 7 .
                                                                                                     l r ~ l ( ol'the GPG.
     I
         See I',kR 1 8 for all i-ele\.a~it1.~1-sioils                      o T l ~ e ~ . t ~ lsection
     IY
         See 7'..\0 19 cc?iltai~~irlg            hlO1 iil~con\;e~-sation     sa ash           \~.itll                              h!Ianagenlellt a l ~ t l
B. The Subject's Intent

The weight of the e~ridenceindicates that thc Subject knowingly and purposeli~llysough1
to retain wronghlly the remaining unspent portion of finding fiom the Award.
Furthermore, the weight of the evidence indicates that the Subject intentionally sought to
conceal and deceive the. NSF and OIG by continuing to mischaracterize the status of the
Award and by failing to tell the truth to OIG investigators. , A s discussed above, there is
direct evidence of both the Subject's knowledge that the Second No-Cost Extension had
been           and direct evidence that the Subject sought to conceal the truth from NSF
and OIG."

C:. D r ~ r d e lof~ Proof

[[I clebarnlent      actions, the bul-den of pl-oof lies on the acting agency (NSF) to clzlllonstrate
i,! a pcel~on~le~-ancc           of the evitlellce that cause t ? ~ r debannenl exists."                           Hew, the
prq~~?ndu-;i~lceoOf          tlie e\.idcrice indicates that [lie Suhjecl pnlposefillly a n d \\,illli~lly'
\.ic)l;~[cil   tile ICI-nisof' LL pi~bli ~ agree~nent
                                                .            (diz d4\\..;isil! by \.iolaling thc czillilrtlnents
I-elated to the esecutioll of it." In adtlition, the PI-zpo~itlcra~ice                            of tlie e\,itlence i~~dicates
that tile Subject intended to co~ier-upher acts b y 111-o\:idingNSF and OIG with misleacli~lg
:?!:,:I f::lse ir?for-mnticl~i.   'I'llc Sl.!bjtct h:ls cngagccl i l l ::ct.; \ ! : l ~ i i l ~:ire suf'fiii~~:~I;;
                                                                                                                  ic~lill~~llin~
:ind serious to suggest that her present responsibilit). to nl31iage Fedes:~l liinds has bcen
c ( . ~ ~ i ~ l ~ ~ -i-1c ~ ~ i ~ i s e ~ l . -

I). Rele\.i111tFactors
                                                                                                                                                           -.
Ille debamlent regulation lists 19 factors that the debarring official ma!; considel-."
Listed belo\\/ are the factors 11el:tinent to this case.

             1. Harm causedj6

NSF has a re\:ersio~ia~-y
                       interest" ill fiincls unobligaled at Ihe espil.:ltioll of an a\\.a~-(I.'llie
S l~I?jc.i.('i  to the
                 (ji-iIi.i-              ( 0 cII-:\\\. C I O \ , ( , . I ~ I . L I I I ~ I . S I Y L > I ~ ~ : I I I \ I:I[I ~ !I <I ~ c C ~ ~ I ~ ~ I K I0 1L I O I I
the ,A\va~-dcaused NSF to lose $27,572.16. By i'~ilselycharacterizing the f u n d request as
a rei~~ibur.scment,NSF \\!as left una\iial-e of its righthl i~itel-esti l l the 1.e111ainingf ~ ~ n d s .
FUI-thcrmol-e,NSF has a significa~ntinterest in cnsul-ing lllat the explicit instl-uctions of its

50
     See T24r3S 5, 8 .
" See T:\R
<-
                 13.
.-45 C'FR $ 620.850, allcl 45 CFIt $620.85.
j3 45 CFR 6 600.800(b)(3).

j" 45 CFR 3 600.800(d).

     ??? :I? (']:R '2 620.860,
"    Scc 45 C F I i jj h20.860 (a).
     Sec .Iy;\B 2 1 lor NSF's G-'~.anll'c?l~cyh l a l ~ n a l Sectio~i
j -1
                                                              .        4-11 \?-liicli st;~tcs~ l i a lNSI- Ilas a "l.c;.crsio~iai.y
inte~.est"i l l tlic uriobligated balancc orall a\r.artl u l x l ~ ie x l ~ i r n l i o or.
                                                                                        i ~ c o n ~ l ' l e l i n ~of
                                                                                                                    l [lie ]>~.c~,iect.    Attnchecl are
tlic \ci.sio~isai-Sectiori 441 In eflect \?.lieii [lit: :\i:.aitl \\.as ~ii;rtlr,\ i I i c ~ l(lie ;ICI clcc~~r.~.ec:l       ; ~ i i i lill crfec! ~io\?:.
A11 tlisce are ~ i r t u a l l yidentical.
program officers' are not ignored by awardees. Here, the Subject's actions were in
blatant disregard of both NSF award conditions and direct instruction by the NSF
Prograin Officer.

            2. Frequency of 1ncidentsS8

The Subject's behavior included multiple wrongs during the period immediately
following expiration of the Award, and later, in her interactions with OIG.

            3. Pattern of Wrongdoings9

OIG has no knowledge of any instances of \vrongdoing coininitted by the Subject
unl-elatecl to the .4\\ia1-ti..Also. there are no kno\.rrn issues nssociatecl with the ,4\\,ard othcr
than thosc discussed herein.

            4. Role in \P l - o ~ t ~ t l o i r l ~ " "

The Subjcct pla>'cii 1hc kc:\-I-OIC in 1.I1e\\.i-ongli~l                    ai.ti\.it!; associated \\.i tll thc false Final
Cash Request and the subsequo~~t                     co\.cl.-up. At the Subject's behest, the
tlre~v do\\:n remaining A\\x~-tlfunds. The Sublect was clil-ectly respons.'i~1E76Txe
s ~ ~ l ~ ~ i l ! c~fthe
                  s s i o ~h1:ic
                            i    Fi;>,::! Pxjcct RC~JOI-t           to hrSF. ' C ~ ~ I ~ ~ ! I LILC   C I ~S~LII I~~. J)cCIu~L   i 1S
                                                                                                                                    L1 ~
                                                                                                                                       111i~i~cI
thesc acts \\;it11 t'L11l k~lo\\.lcil:c of their impropl-iety ant1 after I-epeated explicit \i.arnings
131: t11s NSF PI.O~I-;IIII     c)fl<<:.:~-I I I L I ~ 1lic .!\~5\~:lr(l!lac1 c ~ . p i ~ . c :111d
                                                                                             ( l 110 ~ ~ I I - ~ I I c Icosts
                                                                                                                        -     \ Y O L I I ~ I l?c


            5. ~ c c e ~ ~ t a of'
                               n cIe~ e s ~ l o u s i t ~6 1i ~ i t ) ~

The Subjecl has :jet to ;~ccept: ~ n >I-esponsihility
                                            ~             f o ~ .her actions associatccl i t tllir;
nlatter. Sillce the inceptio~lol- tllis in\,estigation, thc Siibject has contendecl that shi: \\!as
unaware that the Seconcl No-Cost Extension had been denied.62



-I'he Subject has not 1-epa~dNSF for the wrongfully acquired hinds. Ho\vevel., \\lithout
admitting liability, the Iilstitution has seltled ivith the Depar-tment of Justice. Pul-suant to
a settlement agreement, N S F will be macle financially




'"ee     45 CFli $ 620.860 ( b ) .
'"ee     45 CFli 62U.860 (c).
    set <1iCFR 6 ~?n.sl;n(rr.
61
    See 45 C:I-J< $ 620.560 (2).
62
    See TAB 13 r01-the Sulsjcc['s ~ i ~ c ~ n n i ; ~ ~loi t lOICi                          ~ ~ gknc~n;letlgeof tlie :\\\,al-tl I i a \ . ~ ~ i g
                                                              u n i t l j s a \ ~ o \ \ - i all
 expiretl: anti llie h;lC)Ts nillie Sul~.iecr'silile~-\;ie\\.s,711 i4111.il1 9 ; 20O5 and .4~1gu.d          4,2 0 0 5 .
6.(
    See 45 C:I:R $ 620.860 (11).
''  T h e settlemelit agseeuiell( is ;I( .[':I13 22.
                       7. Cooperation of the

Thro~~ghout  the in\cestigation, the Subject \vas uncooperative \vith 01G ~nvest~gators.
The Subject first met with OIG investigators on April 19, 2005. In that meeting, she
denied knowledge that the Award had expired on August 31, 2003. The Subject's
subsequent written response confirmed her position. In August 2005, OIG investigators
presented the Subject with evidence that the NSF Program Officer had denied the Second
No-Cost Extension of the Award. Subject again failed to cooperate with OIG. 66

                       8. Position Held by

At tlie time the \\/i-ongdoiiig \\,as com~iiitted, tlic Sul,Ject \\;as a \'ice Prcsidcnt of the
Institution, the Principal In\lestigator on the A\va~.d alitl the institution's .hthonzed
Organizational Representati~fc.

                       9. Organizational :Iction 68

I'LII-suantto tlie above-mentioned settle~nentagrecmel~t,the Institution has agreed to
i~iiple~nent a varietv of col-rective measures! inclucli~lg bailling of its employees? the
::pi~ointmcntof an ethic; officcl-, :11ii1 tlie acloplion   \:.rii~cri~)c)liiics2nd l ) ~ . < . l i ~to
                                                                                                      tl~~~-~s
cnsul-t conlpliance \\:it11 all apl~licableFedel-a1 n~lcsnr~il1 ~ ~ ~ u l n ~ i o n s . ~ ' "

                       10. Other 17actors7"

Phcl-c is                110   eviilence tliat tl~eSuhiect di\.erted :In!, of the 111isapprol11-iated
                                                                                                   fil~~tls
                                                                                                         to\\.ards
1x1-
   o\\.n personal use or [lie pel.sonnl use of otliel-s, :Ill .4\\.nrcl ti111dsappe:11- to lla\.e lxen
spc11tin the fill-therancc of the A\\~artl.

The other considerations listed in the debarment regulation do not appear rele\!ant to this
matter.



                                                                         c the NSF, we
Consistent nit11 the need to protect the inlerests 01' tlie ~ ~ u b l iand
1.ecommentl tliat NSF take the following actio~lsas a final disposition of this case:

                       Send a notice of pr-oposed debamient to the Sul?iec( illforlning her that slie has
                       been ibund to have \villfiilly violatecI reclu~l'ements relatetl to the NSF A\\!arcl,



     <
(1
         St::        1i C'r:r< $ 6.:0 S60 [;)
(!('     sr c .r,:\ I2 I 3
'"       See 45 CFII           9 620.860(I<)
"5     e C:FR 4 620.860( 1 ) .
    ~c.45
   S.. I'.AI:I 22 Sor h e f i r l l Lexl oPll~cscco~nl~linnce
('?             .>
                                                           Ineasures.
'" See35 CFR 620.860(s).
            CL
         and to have engaged in conduct so serious and cornpelling that it affects her
         present responsibility;

     *   Dzb(11111s S u b j s ~ ft u ~d p e ~ i o dof 3 years Goln final dispositton of thts case;

         Prohibit the Subject frotn serving as a peer reviewer, advisor or consultant
         for three years from final disposition of this case; and

         Require the Subject to submit a certification that she has completed a
         professionally recogized course covering the proper administration of Fedcral
         a~vards.


                     T h e Suhicct's Response to Draft I l ~ ~ e s t i e a t i oRne p o r t

\fie si.~!t-thc Sub,ject a dr;lfi cc,p), o f t h e In\-estigation Repol-t and a11 X p l ~ e ~ ~ l i (chc~si - c t in
                                                                                                                  o
                                          to comment. Tllc S1111-jectchose not to t . ~ . ' ; 1 ) i ) n ~ I .
ol-del-to nffol-(1Ilel. iln opl~ni-tullit~~
